No. 21-

 

IN THE

Supreme Court of the United States

ADOLFO R. ARELLANO,
Petitioner,

v.

DENIS MCDONOUGH, SECRETARY OF
VETERANS AFFAIRS,
Respondent.

On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Federal Cireuit

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
7,623 words, excluding the parts of the document that are exempted by Supreme Court

Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on September 15, 2021.

 

Wilson-Epes Printing Co., Inc.
